o
December 5, 2019

COZEN
O'CONNOR

M i c h a e l B„ d@ ILaeeiaw
Direct Phone

212-908-1331

mdeleeuw@cozen .com
JJ@Ea.Hii 1 . W a l M a s m i s
Direct Phone

206-224-1288

ilwilliams@cozen.com

BY OVERNIGHT Ml AIL
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

Chapman v. ACE Americas! Insurance Company
No. 19=689

Dear Mr. Harris:
We represent the Respondent in the above-captioned matter. The petition for writ of
certiorari was filed on November 27, 2019. The brief in opposition is currently due on
December 27, 2019.
Pursuant to Court Rule 30.4, in light of the intervening holidays and the press of other
matters, we respectfully request a 31-day extension of time to file the brief in opposition. This
would render the opposition brief due on January 27, 2020. We have conferred with Petitioner's
counsel, and he has no objection to the requested extension.
Thank you for your assistance.
Sincerely,
COZEN O'CONNOR

By:

Michael B. de Leeuw
John L. Williams

cc: Joseph Magri, Esq. (counsel for Petitioner) via email
JLW

45 Broadway
212.509.9400

16lh Floor

800.437.7040

New York, NY 10006
212.509.9492 Fax

cozen.com

